State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE
70804-9005

April 13, 2020
By electronic submission and FedEx
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: William Pesnell, et al., v. Jill Sessions, et al. (19-874)
Dear Mr. Harris:
This Court has requested a response from the Respondents, Jill Sessions, et al, in this matter. The brief in
opposition is currently due on April 20, 2020. Due to the large amount of COVID-19 related litigation our
office is handling, the State requests a second extension of thirty days in which to file its brief in opposition.
The new due date would be May 20, 2020.
Respondents have communicated with counsel for the Petitioner, William Pesnell, who said he opposes the
State’s request because the COVID-19 “issue will likely be recurring in nature given the extended
shutdown.” See Pesnell Correspondence (attached).
Under this Court’s Order of March 19, 2020, “motions for extensions of time pursuant to Rule 30.4 will
ordinarily be granted by the Clerk as a matter of course if the grounds for the application are difficulties
relating to COVID-19 and if the length of the extension requested is reasonable under the circumstances.”
Supreme Court Order, March, 19, 2020,
https://www.supremecourt.gov/orders/courtorders/031920zr_d1o3.pdf.
The State’s request for an additional 30 days is reasonable under the circumstances. The Louisiana Attorney
General’s office has been inundated with a flood of COVID-19 related litigation over the past several weeks
as the State seeks to enforce measures to contain the spread of the disease. This litigation presents complex
questions of constitutional law, but none of the issues is time sensitive or urgent.
JEFF LANDRY
ATTORNEY GENERAL

_________________________________
Elizabeth B. Murrill
Solicitor General
cc: Billy R. Pesnell

From:
To:
Cc:
Subject:
Date:
Attachments:

Billy Pesnell
Barbalich, Lauren
Murrill, Elizabeth
RE: Pesnell v. Sessions 19-874
Thursday, April 9, 2020 4:53:21 PM
Billy R_ Pesnell.vcf

CAUTION: This email originated outside of Louisiana Department of Justice. Do not click
links or open attachments unless you recognize the sender and know the content is safe.
Dear Ms. Barbalich:
While we would normally sympathize with the request for an extension, we simply cannot agree to
the extension on the grounds of COVID-19 litigation, as that issue will likely be recurring in nature
given the extended shutdown.
Applicants need this matter to move forward. We understand that you will request the extension in
any event. However, we are unable to agree to an extension at this time.
With kindest regards, I am

From: Barbalich, Lauren <BarbalichL@ag.louisiana.gov>
Sent: Thursday, April 9, 2020 12:20 PM
To: Billy Pesnell <Bill@pesnelllawfirm.com>
Cc: Murrill, Elizabeth <MurrillE@ag.louisiana.gov>
Subject: RE: Pesnell v. Sessions 19-874
Good afternoon,
Just checking back in on this request to see if you had any objection to us filing a second extension?
Thank you,
Lauren Barbalich
From: Barbalich, Lauren
Sent: Wednesday, April 8, 2020 11:33 AM
To: 'bill@pesnelllawfirm.com'
Cc: Murrill, Elizabeth
Subject: Pesnell v. Sessions 19-874

Mr. Pesnell,
We are planning to request a second extension to file our response in the above referenced matter,
due to the large amount of COVID-19 related litigation our office is now handling. Do you have any
objection to this extension?
Sincerely,
Lauren Barbalich
Paralegal to Liz Murrill
The information contained in this transmission may contain privileged and confidential information.
It is intended only for the use of the person(s) named above. If you are not the intended recipient,
you are hereby notified that any review, dissemination, distribution or duplication of this
communication is strictly prohibited. If you are not the intended recipient, please contact the sender
by reply e-mail and destroy all copies of the original message. To reply to our e-mail administrator
directly, please send an e-mail to postmaster@ag.state.la.us.

The information contained in this transmission may contain privileged and confidential
information. It is intended only for the use of the person(s) named above. If you are not the
intended recipient, you are hereby notified that any review, dissemination, distribution or
duplication of this communication is strictly prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original message.

